            National Aeronautics and Space Administration
                 OFFICE OF INSPECTOR GENERAL


              NASA’s Decision Process for
            Conducting Space Launch System
              Core Stage Testing at Stennis




                          OFFICE OF AUDITS
                           JANUARY 8, 2014


IG-14-009
Final report released by:




Paul K. Martin
Inspector General




Acronyms

DOD          Department of Defense
HEO          Human Exploration and Operations
MOU          Memorandum of Understanding
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
NRPTA        National Rocket Propulsion Testing Alliance
OIG          Office of Inspector General
RPT          Rocket Propulsion Test
SLS          Space Launch System


                                                           REPORT NO. IG-14-009
JANUARY 8, 2014




                                                                                          OVERVIEW

          NASA’S DECISION PROCESS FOR CONDUCTING SPACE
           LAUNCH SYSTEM CORE STAGE TESTING AT STENNIS

                                                                                            The Issue

  Test stands for large rocket propulsion systems cost hundreds of millions of dollars to
  build or refurbish and may sit idle for many years after the programs for which they were
  built end. On April 24, 2012, NASA’s Human Exploration and Operations (HEO)
  Mission Directorate approved a plan to refurbish the B-2 test stand at Stennis Space
  Center (Stennis) for testing the core stage of the Agency’s new heavy-lift rocket, the
  Space Launch System (SLS).1 SLS Program management estimated that refurbishing the
  B-2 stand would take approximately 4.5 years to complete and estimated total costs –
  which include refurbishing, special test equipment, testing the core stage, and
  contingency funding – at $352 million. However, an independent NASA team estimated
  the project’s total cost at $407 million. NASA plans the first flight for the SLS in
  December 2017.

  NASA examined two other possible sites for testing the SLS core stage – the Air Force
  Research Laboratory’s 1-125 1C test stand at Edwards Air Force Base in California (1C)
  and NASA’s Advanced Engine Test Facility 4670 at the Marshall Space Flight Center
  (4670). The estimates available to NASA at the time it selected the B-2 stand indicated
  that refurbishment of these other two facilities would take 3.5 and 2.5 years and cost
  $319 million and $251 million, respectively. Unlike the B-2 test stand, NASA did not
  have an independent cost estimate for renovating and testing at these two facilities.
  Despite the lower estimated costs and shorter timeframes associated with readying the
  Air Force and Marshall facilities, NASA chose the B-2 stand citing risks associated with
  testing the core stage at these sites such as transportation risks to 1C and risks associated
  with the noise level from testing at 4670, the existence of the independent cost estimate,
  and the potential benefits of consolidating large-scale testing at Stennis.

  NASA’s Rocket Propulsion Test (RPT) Program Office manages NASA’s rocket
  propulsion testing activities. The RPT Program Manager serves as the chair of NASA’s
  RPT Management Board (RPT Board) – the Agency’s decision-making body for rocket
  propulsion testing.



  1
      The core stage consists of liquid hydrogen and oxygen fuel tanks, subsystem hardware and avionics, and
      four RS-25 rocket engines.




REPORT NO. IG-14-009
                                                                                                 OVERVIEW



     In addition to NASA’s internal process, Federal law requires NASA to coordinate with
     the Department of Defense (DOD) regarding rocket-testing decisions given their
     expense.2 In 1998, the two agencies formed the National Rocket Propulsion Testing
     Alliance (NRPTA) with the goals of preventing duplication of effort, efficiently meeting
     national testing needs, and shaping the Government’s rocket propulsion testing
     capability.

     In July 2008, the NASA Office of Inspector General (OIG) examined allegations that
     NASA’s plan to build the A-3 test stand at Stennis to test the J-2X engine in connection
     with the Constellation Program would duplicate the capabilities of an Air Force testing
     facility in Tennessee. The OIG found that in making its decision on the J-2X, NASA did
     not follow either its own internal procedures or the NRPTA process.3 In response to the
     OIG recommendations, the Agency contracted with The Aerospace Corporation to
     perform an independent assessment of the A-3’s costs and schedule. In addition, NASA
     established a policy that requires the RPT Board to approve all rocket propulsion-testing
     decisions and engage DOD about testing decisions to meet national needs.4

     We initiated this review to examine NASA’s decision-making process for SLS core stage
     testing. Specifically, we reviewed whether NASA’s decision to use the B-2 test stand
     (1) was made in accordance with applicable agreements and policies, (2) resulted in the
     best value for the taxpayer, and (3) best supported the SLS Program. Details of the
     audit’s scope and methodology are in Appendix A.

     Results

     Similar to conclusions we reached 5 years ago in our review of the Agency’s decision
     where to test the J-2X engine, we found that NASA failed to follow its internal policies
     or its Memorandum of Understanding (MOU) with DOD when it selected the B-2 test
     stand for SLS core stage testing. Moreover, we found that NASA did not adequately
     support its decision to refurbish the B-2 given that refurbishing the B-2 stand would be
     more costly and take longer than the two other options. We also found that by selecting
     the B-2 NASA may not have chosen the most efficient and cost-effective test site. In
     addition, although the SLS Program spent considerable time and money studying the B-2
     option, NASA gave the RPT and NRPTA Boards minimal time to assess the cost,
     schedule, and risks of the other test stand options. In addition, driven by the time needed
     to refurbish the test stand to begin core stage testing in accordance with the SLS
     Program’s development schedule, NASA officials selected the B-2 even though SLS


     2
         Public Law 104-201, Section 211(c).
     3
         NASA OIG, “Final Memorandum on the Review of NASA’s Plan to Build the A-3 Facility for Rocket
         Propulsion Testing” (IG-08-021, July 8, 2008).
     4
         NASA Policy Directive (NPD) 8081.1, “NASA Chemical Rocket Propulsion Testing,” February 4, 2010.




ii                                                                                 REPORT NO. IG-14-009
OVERVIEW



  Program managers had not yet fully defined the requirements for core stage testing,
  thereby accepting risks that may negatively affect the Program’s cost and schedule.


NASA Failed to Adequately Assess Options for SLS Core Stage
 Testing

  NASA Did Not Follow Agency Policy or its Agreement with DOD. Managers in the
  RPT Program did not follow Agency policy when selecting the B-2 test facility for SLS
  core stage testing. Specifically, NASA failed to submit a timely Action Request to the
  NRPTA, which hindered the NRPTA’s ability to comprehensively review estimates for
  the other testing sites. In fact, it was not until 3 days after the HEO Directorate Program
  Management Council had approved using the B-2 stand for core stage testing that the
  Executive Coordinator for the NRPTA – an employee of NASA’s RPT Program Office –
  developed an NRPTA recommendation. However, this recommendation was generated
  without an NRPTA Board vote on the three options, was not signed by the NRPTA co-
  chairs, and only briefly summarized the events that led to the decision to choose the B-2
  test stand. Moreover, the RPT Board elimination of the Air Force’s 1C test stand from
  consideration conflicts with the overall intent of the NRPTA MOU and Operating
  Procedures to facilitate the coordination necessary to make informed and efficient
  investments in rocket test facilities.

  Insufficient Time and Information to Assess Cost, Schedule, and Risks. The RPT
  Board and the NRPTA had minimal time to assess the cost, schedule, and risks of testing
  options for the SLS core stage because NASA failed to provide them with appropriate
  and timely information regarding the SLS Program’s testing needs and requirements. As
  prescribed in the NRPTA MOU, NASA and DOD agreed to seek the advice and
  recommendations of the NRPTA Board in time to inform the Agency’s decision-making
  process before spending hundreds of millions of dollars to either build or renovate a test
  stand. However, NASA did not initiate the process early enough to do so. Rather, it
  allowed the timetable required to refurbish the B-2 stand to drive the timing of its
  decision-making process. Specifically, because more than 4 years would be needed to
  complete refurbishment of the B-2 stand, delaying a decision on which test stand to use
  beyond April 2012 could have affected the overall SLS development schedule and
  potentially eliminated the B-2 stand as a practical testing option.

  Presentations Lacked Comparable and Consistent Data. The methodology employed
  by the RPT Program and the fidelity of its assessments were inconsistent and resulted in
  gaps in knowledge that made comparison of testing options unreasonable and arguably
  inaccurate. Specifically, the B-2 stand received an independent cost estimate and
  approximately 2 years of HEO Mission Directorate funded assessments. The other two
  candidate sites had 3 weeks or less to conduct their assessments and received no external
  funding to conduct these reviews. We also identified inaccuracies in the cost estimates
  provided to the Council. For example, the SLS Program Manager applied costs to the



REPORT NO. IG-14-009                                                                            iii
                                                                                                     OVERVIEW



     4670 and 1C test stands that were specific to the B-2 test stand even though there was no
     evidence that these facilities would incur such costs.

     NASA’s RPT Decision-Making Process Lacks Internal Controls. Although NASA
     agreed to the provisions set forth in its MOU with DOD, the Agency has no controls in
     place to ensure that the appropriate process is followed and an NRPTA recommendation
     is obtained prior to making a decision and committing funds for rocket propulsion testing.
     Specifically, project management life-cycle reviews do not require managers of systems
     that require rocket propulsion testing to plan for or obtain the appropriate RPT or NRPTA
     Board recommendations.

     Structure of RPT Program Management Contributes to Ongoing Challenges. The
     ability of the RPT Program Manager to recommend and the HEO Mission Directorate to
     approve and fund rocket propulsion testing investments – absent an NRPTA
     recommendation – highlights a disconnect between the NRPTA MOU and NASA’s
     approval processes. We believe this is due in part to the broad authority NASA invests in
     the RPT Program Manager. Specifically, as the Chairman of NASA’s RPT Board, co-
     chair of the NRPTA, and member of the NRPTA Senior Steering Group the RPT
     Program Manager holds all of the most influential positions on the RPT and NRPTA
     Boards.5 In our judgment, it is not possible for one person to accomplish all these tasks
     objectively while considering what constitutes the best value for the taxpayer, the best
     short- and long-term strategy for the organization, and the best fit for the program in need
     of rocket propulsion testing.

     B-2 Decision May Introduce Costs and Schedule Risk to SLS Program. NASA chose
     the B-2 test stand for SLS core stage testing without assessing complete and comparable
     data from other potential sites to make a well-informed decision. NASA’s limited
     internal assessments indicated that refurbishing the B-2 test stand was not the most cost-
     effective or timely choice to meet the testing requirements for SLS. Comparisons
     presented by the SLS and RPT Programs showed that B-2 was in the lowest state of
     readiness, would require the longest time to refurbish, and would cost the most of the
     three options. Although NASA may have a strategic reason for choosing the more
     expensive B-2 option (i.e., consolidation of rocket engine test facilities and resources at
     Stennis), we question whether NASA adequately considered all testing options before
     making its decision.

     In a September 2012 audit, the OIG identified NASA’s culture of optimism,
     underestimating technical complexity, and funding instability as challenges the Agency
     faces in meeting project cost, schedule, and performance goals.6 We believe these factors

     5
         The Senior Steering Group is charged with providing guidance and direction to the NRPTA and serves as
         a forum for members to present recommendations and proposed actions and obtain resolution of
         disagreements.
     6
         NASA OIG, “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
         September 27, 2012).




iv                                                                                     REPORT NO. IG-14-009
OVERVIEW



  affected NASA’s choice for SLS core stage testing. NASA chose the test facility with
  the longest and most expensive development time and is optimistically planning that all
  aspects of the renovation will come together in time for the stand to accommodate the
  SLS’s test schedule. Furthermore, at the time the Agency chose the B-2 test facility,
  NASA and Boeing had not yet fully defined SLS core stage technological requirements.
  To account for the immaturity of the SLS vehicle design and requirements, NASA’s
  independent cost estimate added $86.7 million for special test equipment and risk to
  account for potential design changes, funding delays, construction issues, and additional
  testing scenarios. Moreover, the estimate stated that the 6-month schedule margin for the
  B-2 was very optimistic for such a large, complex project, especially since Boeing
  hardware access requirements had not been identified, subsystem tests objectives were
  not defined or budgeted, and special test equipment hardware designs were not yet
  included in either Boeing or B-2 funding plans.

  In November 2013, the B-2 Project Manager noted delays in finalizing core stage
  requirements needed to refurbish the B-2 and design the required special test equipment.
  Because B-2 refurbishment is a critical path item for SLS, it is imperative that firm
  design requirements be established and communicated in a timely manner to mitigate the
  risks to the SLS first flight and associated costs to the Program.

  Management Action

  To increase NASA’s ability to make sound cost and schedule estimate comparisons when
  considering rocket-testing options, we recommended that the Associate Administrator for
  HEO review internal control processes and implement a strategy for assuring timely
  coordination with DOD and adherence to requirements of NPD 8081.1; ensure that
  requirements of NPD 8081.1 are referenced in NASA’s project management policies; and
  revise NPD 8081.1 to include an independent review of RPT and NRPTA
  recommendations at appropriate life-cycle reviews. We also recommended that the
  Associate Administrator review the roles and responsibilities of the RPT Program
  Manager to ensure the position’s scope of authority is appropriate for accomplishing
  tasks objectively and provides consistency with the intent of the MOU with DOD.

  In response to our draft report, the Associate Administrator for HEO concurred or
  partially concurred with our recommendations and agreed to take corrective actions. We
  consider these proposed corrective actions responsive; therefore, the recommendations
  are resolved and will be closed upon completion and verification of those actions.

  The Associate Administrator also commented that NASA’s decision to test the core stage
  at Stennis was not driven solely by cost, but rather based on a “comprehensive
  assessment set of all risks, including costs and schedule risks to the program and physical
  risks to valuable flight hardware.” In addition, the Associate Administrator stated that
  after multiple attempts to engage DOD members in the NRPTA process, the Air Force
  Research Laboratory provided the only response and NASA ultimately decided that the
  risk of transporting the core stage flight article to the 1C test stand overruled cost


REPORT NO. IG-14-009                                                                            v
                                                                                      OVERVIEW



     considerations. In light of these considerations, the Associate Administrator stated
     NASA is “confident it made the right decision in choosing to conduct SLS core stage
     testing at B-2.”

     Management’s full response is reprinted in Appendix B.




vi                                                                        REPORT NO. IG-14-009
JANUARY 8, 2014




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 9

  RESULTS
      NASA Failed to Adequately Assess Options for SLS
        Core Stage Testing ________________________________ 10

  APPENDIX A
      Scope and Methodology _______________________________ 23
      Review of Internal Controls ____________________________ 23
      Prior Coverage ______________________________________ 24

  APPENDIX B
      Management Comments ______________________________ 25

  APPENDIX C
      Report Distribution ___________________________________ 28




REPORT NO. IG-14-009
JANUARY 8, 2014




                                                                       INTRODUCTION


Background

  Test stands for large rocket propulsion systems often cost hundreds of millions of dollars
  to build or refurbish and may sit idle for many years after the programs for which they
  were built end. On April 24, 2012, NASA’s Human Exploration and Operations (HEO)
  Directorate Program Management Council (Council) approved a plan to refurbish the B-2
  test stand at Stennis Space Center (Stennis) to enable it to test the core stage of NASA’s
  new heavy-lift rocket known as the Space Launch System (SLS). SLS Program
  management estimated that refurbishing B-2 would take 4.5 years to complete. Total
  costs, including refurbishing, special test equipment, testing the core stage, and
  contingency funding, were expected to be $352 million. NASA assembled an
  independent team that put the total costs of preparing and using B-2 for core stage testing
  at $407 million.

  NASA examined two other possible sites for testing the SLS core stage – the Air Force
  Research Laboratory’s 1-125 1C test stand at Edwards Air Force Base in California (1C)
  and NASA’s Advanced Engine Test Facility 4670 at the Marshall Space Flight Center
  (4670). The estimates available to NASA at the time it selected the B-2 indicated that
  refurbishment of these other two facilities would take 3.5 and 2.5 years, and total costs to
  test the core stage were $319 million and $251 million, respectively. Unlike for the B-2
  test stand, NASA did not have an independent cost estimate for renovating and testing at
  these two facilities. Despite the lower estimated costs and shorter timeframes for
  refurbishing the Air Force and Marshall facilities, NASA chose the B-2 stand citing risks
  associated with testing at the other two sites, the existence of the independent cost
  estimate, and the potential benefits of consolidating large-scale testing at Stennis.

  NASA’s Space Launch System. The National Aeronautics and Space Administration
  Authorization Act of 2010 (Authorization Act) directs NASA to develop a heavy-lift
  rocket to enable human exploration beyond low-Earth orbit.7 In response, NASA is
  developing the SLS – the first exploration-class rocket since the Saturn V used to
  transport the astronauts to the Moon. NASA plans to use the main engine from its retired
  Space Shuttle – the RS-25 rocket engine – on the SLS and is designing the vehicle with
  an evolvable architecture that can be tailored to accommodate longer and more ambitious
  missions. For example, initial versions of the SLS will be capable of lifting 77 tons and
  use an interim cryogenic propulsion stage (interstage) to propel the crew capsule under
  development known as the Orion Multi-Purpose Crew Vehicle around the Moon (see
  Figure 1). Later SLS versions will be designed to lift 143 tons and incorporate an upper

  7
      Public Law 111-267, October 11, 2010.




REPORT NO. IG-14-009                                                                             1
                                                                                                INTRODUCTION



    stage, possibly consisting of two J-2X engines, to provide the additional power needed to
    travel to deep space. Common to all configurations is a core stage comprised of liquid
    hydrogen and oxygen fuel tanks, subsystem hardware and avionics, and RS-25 engines.

                                         Figure 1. SLS Configurations




    Source: NASA.

    SLS Core Stage Configuration and Timeline. The SLS’s configuration and
    development timeline have gone through a number of changes since Program inception.
    In January 2011, NASA told Congress that the architecture would consist of five RS-25
    engines and that due to budget limitations it was not likely the SLS would launch by the
    2016 goal set forth in the 2010 Authorization Act.8 By September 2011, NASA was
    considering a core stage design that could evolve to incorporate either three, four, or five
    engines and published its intent to proceed with a sole source acquisition strategy for the
    core stage by extending its contract for the Constellation Program’s Ares I upper stage
    with The Boeing Company (Boeing).9 In its justification for a sole source contract,

    8
        NASA, “Preliminary Report Regarding NASA’s Space Launch System and Multi-Purpose Crew Vehicle
        Pursuant to Section 309 of the NASA Authorization Act of 2010 (P.L. 111-267)” January 2011.
    9
        NASA’s Constellation Program was developing the Ares I Crew Launch Vehicle, J-2X engine, and the
        Orion Crew Exploration Vehicle to facilitate a return of humans to the moon and eventual human
        spaceflight to Mars. The Ares upper stage consisted of the J-2X engine and components such as liquid
        hydrogen and oxygen tanks and a delivery system similar to those needed for the SLS core stage.




2                                                                                      REPORT NO. IG-14-009
INTRODUCTION



  NASA argued that the core stage was a critical path item and by virtue of its work on the
  upper stage Boeing was best positioned to deliver the core stage in time for it to be tested
  and available for a first flight in December 2017. Moreover, NASA stated that a
  competitive procurement would likely delay the SLS Program by 18 months. Trade
  studies conducted at the end of 2011 determined that the three-engine configuration did
  not support initial exploration missions, and in January 2012 NASA established the
  vehicle’s current four-engine design. As of November 2013, NASA planned to receive
  delivery of the core stage from Boeing in time to commence testing at Stennis in the first
  quarter of fiscal year 2017.

  NASA’s Rocket Propulsion Test Program. NASA’s Rocket Propulsion Test (RPT)
  Program Office is located at Stennis and is part of the HEO Mission Directorate. The
  Program Office manages the test assignments and portions of the budget, such as test
  stand maintenance, for NASA’s rocket propulsion testing activities. The RPT Program
  Manager is responsible for coordinating with the Directors of NASA’s four rocket test
  Centers –Marshall, Plum Brook Station, Stennis, and White Sands Test Facility – and two
  associate testing Centers – Glenn Research Center and Kennedy Space Center – to create
  integrated funding, staffing, and facility modification plans; capital asset improvements;
  test facility modernization and refurbishments; integration for multi-site test
  requirements; identification and protection of core capabilities; and the advancement and
  development of test technologies.

  The RPT Program Manager also serves as the chair of NASA’s RPT Management Board
  (RPT Board), which consists of representatives from each test Center. The Board serves
  as NASA’s decision-making body for rocket propulsion testing by reviewing, approving,
  and providing direction on:
         testing assignments;
         capital investment recommendations for rocket propulsion test facilities and
          equipment;
         facility modifications or refurbishments affecting the Agency’s rocket propulsion
          test capability;
         annual budget requirements (establishment and approval);
         official documentation pertaining to multi-site test activities; and
         key decisions relating to NASA rocket propulsion testing.

  The National Rocket Propulsion Testing Alliance. In addition to NASA’s internal
  process, Federal law requires NASA to coordinate with the Department of Defense
  (DOD) regarding rocket propulsion testing decisions. Specifically, the National Defense
  Authorization Act for Fiscal Year 1997 provides that

          Not later than 90 days after the date of the enactment of this Act, the Secretary of
          Defense and the Administrator of the National Aeronautics and Space Administration
          shall submit to Congress a joint plan for coordinating and eliminating unnecessary



REPORT NO. IG-14-009                                                                             3
                                                                                                INTRODUCTION



               duplication in the operations and planned improvements of rocket engine and rocket
               engine component test facilities managed by the Department of the Air Force and the
               National Aeronautics and Space Administration. The plan shall provide, to the extent
               practical, for the development of commonly funded and commonly operated
               facilities.10

    Although NASA and DOD never provided a formal plan to Congress, in 1998 the two
    agencies formed the National Rocket Propulsion Testing Alliance (NRPTA) with the
    goals of preventing duplication of effort, efficiently meeting national testing needs, and
    shaping the Government’s rocket propulsion testing capability.

    The NRPTA Board consists of representatives from NASA’s four primary test sites and
    from four DOD facilities: Arnold Engineering Development Center near Tullahoma,
    Tennessee; Air Force Research Laboratory at Edwards Air Force Base in California;
    Army Redstone Test Center in Huntsville, Alabama; and the Naval Air Warfare Center in
    China Lake, California. The Board is co-chaired by NASA’s RPT Program Manager and
    a representative of one of the DOD organizations and is charged with reviewing testing
    needs and recommending solutions that provide the best overall value to the taxpayer.

    The NRPTA’s Senior Steering Group (Steering Group) is composed of the RPT Program
    Manager, one representative from NASA Headquarters, and one representative from each
    of the four DOD member organizations. The Steering Group is charged with providing
    guidance and direction to the NRPTA and serves as a forum for members to present
    recommendations and proposed actions and obtain resolution of disagreements.

    Rocket Propulsion Testing Decision Process. Senior NASA and DOD officials signed
    the initial Memorandum of Agreement for the NRPTA on January 9, 1998, and the most
    recent Memorandum of Understanding (MOU) on April 29, 2009. In addition to the
    MOU, Operating Procedures for the RPT Board and NRPTA provide detailed
    requirements for decision making about rocket propulsion testing assignments. These
    Operating Procedures are designed to ensure that testing requirements are adequately
    addressed in the decision-making process.

    NASA’s Internal Process. The RPT Board’s Operating Procedures state that when a
    NASA organization desires to make a modification to a testing facility that will cost more
    than $500,000, deviate from a testing facility’s baseline capability, or is contacted about
    potential testing, an “Action Request” and any related information is to be forwarded to
    the RPT Program Office. The Action Request includes the name and location of the
    person initiating the request, a description of the requested action, investment
    requirements, and a cost estimate. The RPT Program Office distributes the Request and
    supporting information to the RPT Board members, who evaluate the Request against
    baseline roles, cost, schedule, facility investment, technical requirements, and customer
    preference to ensure project requirements are considered and addressed in the decision-

    10
         Public Law 104-201, Section 211(c).




4                                                                                       REPORT NO. IG-14-009
INTRODUCTION



  making process. When modifications to a facility or unique equipment investments for a
  test program exceed $2 million in 1 year or $10 million total, the Board’s operating
  procedures require that the Action Request be shared with and considered by the NRPTA.

  The NRPTA Process. The governing MOU for the NRPTA provides that the
  organization “will be notified, and the advice and recommendations of the NRPTA Board
  will be requested in a timely manner in order to effectively influence the decision-making
  process.” The MOU further states that:

         The NRPTA Board will be requested to provide a recommendation, based on an
         analysis of alternatives and the Government's cost estimates, to the appropriate
         decision-making authority, under any of the following conditions:

         a) When a new rocket propulsion test facility meeting the foregoing [$2 million in
         1 year or $10 million total] threshold is required by elements of either Party.

         b) If rocket propulsion test requirements exceed current test facility capabilities
         within an agency/service and facility construction, modification, or upgrading,
         exceeding the foregoing threshold, is necessary to satisfy those requirements.

         c) When commercial entities seek Government estimates for rocket propulsion testing
         at member sites, and facility construction, modification, or upgrading, exceeding the
         foregoing threshold, is necessary to perform the tests.

  The NRPTA Operating Procedures contain detailed guidelines applicable to all rocket
  propulsion test activities conducted at NASA or DOD locations. They provide that
  NRPTA members submit Action Requests to their respective chairs to document planned
  actions or investments or to initiate a review of issues raised by the NRPTA membership,
  including facility investments, test assignments, and changes in test stand status or
  functionality. All facilities belonging to NRPTA members as well as commercial
  facilities are to be considered for each new capability, modification, investment, or test.
  Once NRPTA members have discussed and validated an Action Request, the NRPTA
  members affected by the proposed action develop Decision Packages detailing facility,
  cost, schedule, and staffing relative to the testing requirements and distribute the
  packages to all NRPTA members. Following the co-chairs’ determination that sufficient
  discussion has taken place, members vote on the options. The position with the most
  votes is forwarded to the requesting agency as the NRPTA recommendation while
  unresolved issues are forwarded to the Steering Group for resolution. See Figure 2 for a
  flow chart detailing the NRPTA process.




REPORT NO. IG-14-009                                                                             5
                                                                                                INTRODUCTION



                               Figure 2. NRPTA Action Request Process Flow




    Source: NASA Office of Inspector General analysis of NRPTA Operating Procedures.

    According to NASA’s RPT Program Manager, the NRPTA has made
    66 recommendations since its inception in 1998. Of those, seven have resulted in actual
    testing assignments. For example, in 2008 an NRPTA recommendation led Orbital
    Sciences Corporation to select the E-1 test stand at Stennis for verification and
    acceptance testing of the company’s AJ26-62 engines used in its Antares rocket. In
    another case, an NRPTA recommendation in 2010 resulted in the Missile Defense
    Agency testing multi-use thrusters at a White Sands test stand.11 Overall, according to
    Program officials, coordination through the NRPTA has resulted in $40.7 million of cost
    savings or cost avoidance.

    Rocket Propulsion Test Sites Capable of Supporting SLS Core Stage. Because of its
    size and thrust capability, only three existing facilities were candidates for testing the
    SLS core stage:

              The B-2 test stand at Stennis is the largest, full-scale liquid rocket test stand in the
               United States. Construction began in 1963 and NASA used the stand to test the
               Saturn V rocket from 1967 to 1970, the Space Shuttle main engines from

    11
         These thrusters were used in missile defense applications and the technology was leveraged for NASA
         science and space exploration.




6                                                                                       REPORT NO. IG-14-009
INTRODUCTION



          April 1978 through January 1981, and the Boeing Common Booster Core in 2001.
          The stand can accommodate full-scale rocket engine and systems testing (see
          Figure 3).

                       Figure 3. Delta IV Common Booster Core Testing




               Source: NASA.

         Marshall’s 4670 test stand was built in 1965 to support the Apollo Program.
          NASA later modified the stand as part of the Space Shuttle Program, using it to
          test the Shuttle’s RS-25 engine and external tanks between 1976 and 1999, and
          the Lockheed RD-180 in 1998 (see Figure 4).

                 Figure 4. First Stage Testing of the Saturn V Launch Vehicle




               Source: NASA.


REPORT NO. IG-14-009                                                                        7
                                                                                           INTRODUCTION



              The 1C test stand at the Air Force Research Laboratory was also built to support
               NASA’s Apollo Program and NASA used it to test the Saturn rocket’s F-1 engine.
               NASA transferred control of the stand to the Air Force in 1974, which has used it
               to test a variety of engines and rocket motors, including the Titan series of rockets
               used in intercontinental ballistic missiles (see Figure 5).

                                   Figure 5. Titan 4 Solid Rocket Motor
                                                  Testing




                                  Source: U.S. Air Force.

    Prior Review of NASA Rocket Propulsion Testing Decision. In July 2008, the NASA
    Office of Inspector General (OIG) examined allegations that NASA’s plan to build the
    A-3 test stand at Stennis to test the J-2X rocket engine in connection with the
    Constellation Program would duplicate the capabilities of an Air Force testing facility in
    Tennessee. The OIG found that in making the decision to build the A-3 test stand, NASA
    did not follow either its own internal RPT Board process or the NRPTA process.12 In
    response to the report, NASA officials cited program schedule pressure as the reason for
    bypassing both processes. Unfortunately, the A-3 test stand ended up costing
    significantly more and taking longer to build than NASA anticipated. In February 2008,
    NASA estimated the A-3 test stand would be operational in September 2010 and cost
    between $163 million and $185 million. However, construction of the test stand took
    3 years longer than estimated and costs have risen to $349 million. Moreover, because
    the Constellation Program was cancelled in 2010 and requirements for the J-2X engine in
    12
         NASA OIG, “Final Memorandum on the Review of NASA’s Plan to Build the A-3 Facility for Rocket
         Propulsion Testing” (IG-08-021, July 8, 2008).




8                                                                                  REPORT NO. IG-14-009
INTRODUCTION



  the SLS Program differed substantially, the A-3’s unique testing capabilities will not be
  needed and the stand will be mothballed upon completion.

  In the 2008 review, the OIG recommended that NASA request an independent review
  and assessment of the technical and cost risks associated with the A-3 test stand and issue
  a policy detailing the requirements for NASA organizations to request formal reviews
  and recommendations from the RPT Board and, as appropriate, the NRPTA for rocket
  testing. NASA contracted with The Aerospace Corporation to perform the independent
  assessment, which showed the Agency lacked technical support for construction and
  development of the A-3 test stand and that its estimates of cost and schedule were overly
  optimistic.

  NASA also established a policy directive that requires the RPT Board to review and
  approve all rocket propulsion-testing decisions and that NASA engage DOD about
  testing decisions to meet national needs.13 The policy outlines the responsibilities of the
  RPT Program Office, including the requirement to “utilize the NRPTA to conduct DOD
  facility trade studies, acquire costs estimates, and seek test assignments, as appropriate, to
  meet NASA customer rocket propulsion testing needs.”

Objectives

  We initiated this review to examine NASA’s decision-making process for SLS core stage
  testing. Specifically, we reviewed whether NASA’s decision to use the B-2 test stand
  (1) was made in accordance with applicable agreements and policies, (2) resulted in the
  best value for the taxpayer, and (3) best supported the SLS Program. See Appendix A for
  details of the review’s scope and methodology, our review of internal controls, and a list
  of prior coverage.




  13
       NASA Policy Directive (NPD) 8081.1, “NASA Chemical Rocket Propulsion Testing,” February 4, 2010.




REPORT NO. IG-14-009                                                                                      9
                                                                                          RESULTS




                      NASA FAILED TO ADEQUATELY ASSESS OPTIONS
                                     FOR SLS CORE STAGE TESTING

            We found that NASA did not follow its internal policies or its agreement with DOD
            when selecting a facility for SLS core stage testing, nor did it adequately support its
            decision to refurbish the B-2 test stand, which estimates indicate will be more costly
            and take longer than the other available options. We also found that by selecting the
            B-2 stand, NASA may not have chosen the most efficient and cost-effective testing
            option. Although the SLS Program spent considerable time and money studying the
            B-2 option, NASA gave the RPT and NRPTA Boards minimal time to assess the
            cost, schedule, and risks of the other test stand options. Moreover, driven by the
            time needed to refurbish the B-2 stand to commence testing in accordance with the
            SLS development schedule, NASA officials selected B-2 even though SLS Program
            managers had not yet fully defined the requirements for core stage testing, thereby
            accepting risks that may negatively affect the Program’s cost and schedule.


NASA Failed to Follow Agency Policy or its Agreement with DOD

     Managers in the RPT Program did not follow Agency policy when selecting the B-2 test
     facility for SLS core stage testing. Specifically, NASA failed to submit a timely Action
     Request to the NRPTA, which hindered the NRPTA’s ability to comprehensively review
     estimates for the other testing sites. In fact, it was not until 3 days after the HEO
     Directorate Program Management Council had approved using the B-2 stand for core
     stage testing that the Executive Coordinator for the NRPTA – an employee of NASA’s
     RPT Program Office – generated an NRPTA recommendation. However, this
     recommendation was generated without an NRPTA Board vote on the three options, was
     not signed by the NRPTA co-chairs, and only briefly summarized the events that led to
     the decision to use the B-2 test stand. Moreover, the RPT Board eliminated consideration
     of the Air Force’s 1C test stand, an action that conflicted with the overall intent of the
     NRPTA MOU and Operating Procedures to facilitate the coordination necessary to make
     informed and efficient investments in rocket test facilities.


NASA Gave RPT and NRPTA Boards Insufficient Time to Assess
 the Cost, Schedule, and Risks of the Three Testing Options

     The RPT Board and the NRPTA had minimal time to assess the cost, schedule, and risks of
     testing options for the SLS core stage because NASA failed to provide them with
     appropriate and timely information regarding the SLS Program’s testing needs and
     requirements. As prescribed in the NRPTA MOU, NASA and DOD agreed to seek the
     advice and recommendations of the NRPTA Board in time to inform the Agency’s decision-
     making process. However, NASA did not initiate the process early enough to do so. Rather, it


10                                                                          REPORT NO. IG-14-009
RESULTS



  allowed the timetable required to refurbish the B-2 stand to drive the timing of its decision-
  making process for testing options.14 Specifically, because more than 4 years would be needed
  to complete refurbishment of the B-2 stand, delaying a decision on which test stand to use
  past the end of April 2012 could have affected the overall SLS development schedule and
  potentially eliminated the B-2 stand as a practical testing option.

  NASA Focused on B-2 for SLS Core Stage Testing. As early as March 2011, the
  Project Integration Office at Stennis began studying the level of effort required to
  refurbish B-2 and better position Stennis to support the SLS flight schedule. Although
  the estimated costs of the facility modification and refurbishment exceeded the dollar
  thresholds established in the NRPTA MOU and Operating Procedures, no Action Request
  was generated to initiate a review of the proposed investment at that time. Instead, on
  February 24, 2012, SLS Program Managers announced that they had baselined the B-2
  test stand as the core stage test location and established a cost estimate for budget
  purposes. Further, in contrast to NASA policy requirements that Programs “request test
  assignments and approval for investments in Agency RPT facilities from the RPT
  Program,” the SLS Program Office did not submit an Action Request to the RPT Board
  prior to this announcement. Instead, only after identifying the B-2 stand as the location
  for testing in its baseline budget projections did SLS Program managers informally
  request that the RPT review all test location options and make recommendations.

  NASA Failed to Initiate Formal NRPTA Process. NRPTA Operating Procedures state
  that Action Requests are to be submitted to the respective agency chairperson and
  NRPTA Executive Coordinator to seek recommendations when investments for a test
  program exceed $2 million in 1 year or $10 million total. Although RPT Program
  management informally communicated with NRPTA members regarding the need for a
  test stand to conduct SLS core testing, the SLS Program never submitted a formal Action
  Request seeking the advice and recommendation of the NRPTA Board for core stage
  testing. The Stennis RPT Board representative submitted the only formal Action Request
  on March 12, 2012, to the RPT Program Office, but instead of soliciting the required
  recommendation, the request simply asked to change the status of B-2 from “Mothball”
  to “Active Occupied” and to request a test assignment to B-2.15

  The NRPTA held its first meeting to discuss SLS core stage testing options on March 28,
  2012. In the absence of the RPT Program Manager, the NRPTA Executive Coordinator
  informed members attending the meeting – which did not include representatives from

  14
       At an American Institute of Aeronautics and Astronautics conference in July 2005, NASA Propulsion
       Test Directorate personnel stated that because rocket propulsion testing is a critical long lead item of any
       space system acquisition, government leaders, test support personnel, and vehicle development personnel
       need to give early consideration to an appropriate strategy. The presenters also stated that it is advisable
       to begin technical and programmatic assessments of test capability upgrades and customizations even
       before authorization for the space system development is official.
  15
       NASA defines a facility as mothballed if it is maintained only to the extent necessary to prevent
       deterioration of essential systems. NASA considers a facility active if it is being used by a current
       program or near-term program, or for an institutional requirement.




REPORT NO. IG-14-009                                                                                                  11
                                                                                                               RESULTS



     Marshall or the Air Force Research Laboratory – that NASA’s SLS Program had
     solicited the RPT Program Office to provide test cost information for ground testing the
     SLS core stage.16 In addition, the NRPTA Executive Coordinator explained that an
     Action Request had not been generated due to time limitations and the small number of
     sites capable of handling the core stage tests. He also represented that NASA needed to
     make its decision on a test stand by the end of April 2012 to meet a congressional
     funding request deadline and to avoid impacting the SLS Program’s first scheduled
     launch date. However, we found that the main driver for the April deadline was the
     4.5 years that would be needed to refurbish the B-2 test stand and did not consider that
     the other two viable test stand options required less time for refurbishment.

     On April 19, 2012, 5 days before the official RPT Program recommendation of a test
     assignment was due to the HEO Council for final decision, the NRPTA Executive
     Coordinator generated an Action Request to solicit input on SLS testing options from
     NRPTA members. That same day, the NRPTA Executive Secretary requested that
     NRPTA members submit presentations of testing options for the group’s next meeting
     scheduled for April 25, 2012. The original intent of the April 25 meeting was to have the
     full membership review each candidate’s “rough order of magnitude” packages.17
     However, on the day before the scheduled meeting the RPT Program Manager presented
     a formal recommendation to refurbish B-2 to the Council, explaining that there was not
     enough time to fully evaluate the other test sites and therefore only the B-2 stand had a
     comprehensive cost, schedule, and risk estimate completed. We believe that if NASA
     had provided NRPTA members the same requirements SLS Program management used
     to baseline their estimates to refurbish B-2, it is likely that a more comparative and
     complete analysis could have been performed for the other testing facilities.

     Although the analysis of all feasible options was incomplete, on April 24, 2012, the RPT
     Program Manager made a presentation to the HEO Directorate Program Management
     Council and concurred with the SLS baseline to use B-2 for the core stage testing. The
     Council concurred with the RPT recommendation and approved SLS core stage testing at
     B-2. Based on information gathered as part of our review, we determined that the
     Council had confidence in the estimates for the B-2 test stand and was willing to accept
     the identified risks rather than wait on a full cost, schedule, and risk analysis of the other
     two facilities. Following the decision of the Council, the RPT Program Manager
     contacted the members of NASA’s RPT Board to convey “apologies for the rush” and
     acknowledge that they “did not have enough time to do a complete assessment” of the
     other two potential test sites.


     16
          Marshall representatives stated that active participation in the process was not a priority for them because
          in their opinion the decision of where to test SLS core stage would be made by the RPT Program
          Manager.
     17
          Rough order of magnitude estimates are used early in a project when there is limited information from
          which to develop more accurate estimates and are based on top-level requirements and an overall
          prediction of work to be done to satisfy the requirements.




12                                                                                            REPORT NO. IG-14-009
RESULTS



Presentations Lacked Comparable and Consistent Data

  The methodology employed by the RPT Program and the fidelity of its assessments were
  inconsistent and resulted in gaps in knowledge that made comparison of testing options
  unreasonable and arguably inaccurate. Specifically, the B-2 stand received an
  independent cost estimate and approximately 2 years of study and HEO Mission
  Directorate funded assessments. The other two candidate sites had 3 weeks or less to
  conduct their assessments and no external funding. In the end, both Air Force and
  Marshall managers were only asked to provide “rough order of magnitude” cost estimates
  to assess the viability of using their stands for the core stage tests. The SLS and RPT
  Program managers assigned a 70 percent confidence level to the B-2 independent cost
  estimate and a 50 percent confidence level to the Air Force and Marshall estimates – a
  difference the RPT Program Manager later cited as a contributing factor for selecting the
  B-2 test stand.

  SLS Program Review. The SLS Program Manager said he based his preference to use
  the B-2 test stand on minimizing schedule and risk impacts to the Program despite the
  lower estimated costs and shorter timeframes for refurbishing the Air Force and Marshall
  facilities. As early as March 2011, the SLS Program and Stennis began to assess the B-2
  stand’s major auxiliary, electrical/mechanical, and structural elements for potential core
  stage testing. As mentioned previously, the SLS Program and Stennis did not conduct
  similar assessments of either the Air Force or Marshall testing options.

  Table 1 compares the cost and schedule estimates presented by the SLS Program
  Manager to the Council for the three potential test sites.




REPORT NO. IG-14-009                                                                           13
                                                                                                   RESULTS




                                 Table 1. SLS Program Comparison of Test Facilities
                                                (dollars in millions)
                                                                                             Independent Cost
                                     Air Force           Marshall          SLS Estimate
                                                                                               Estimate for
                                    TS 1-125 1C           4670            for Stennis B-2
                                                                                                Stennis B-2
                                                                           Mothballed/
    Test Stand Status              Active standby        Mothballed                                 N/A
                                                                           abandoned
    Estimate Fidelity              3-week estimate    1-week estimate      2-year study       1-month analysis
                                   3 years 5 months   2 years 7 months   4 years 7 months
    Estimated Schedule                                                                              N/A
                                     FY 2013 start      FY 2014 start      FY 2012 start
    Estimated Cost
       Facility and Test Costs              $158.0a             $92.5a             $191.0b                $246.3c
       Special Test Equipment                  28.3               28.3                28.3                   28.3
       Risk                                    58.4               58.4                58.4                   58.4
       Boeing                                  74.0               74.0                74.0                   74.0
       Total                                 $318.7             $250.7              $351.7                 $407.0
a
  50 percent confidence level
b
  50-60 percent confidence level
c
  70 percent confidence level
Source: NASA OIG analysis of SLS Program presentation.

           As illustrated in the table, the SLS Program Manager estimated that B-2 would require
           4.5 years to refurbish and total costs, including refurbishing, special test equipment,
           testing the core stage, and contingency funding, would be $352 million. The Air Force
           1C test stand was expected to require approximately 3.5 years and $319 million and the
           Marshall 4670 stand 2.5 years and $251 million.

           The SLS Program Manager stated that given enough time, funding, and technical
           innovation any of the three facilities could perform the test. However, he noted a high
           transportation risk with using the 1C test stand and a high acoustic risk with testing at
           Marshall. The Program Manager said transportation from the manufacturing plant to the
           Air Force facility in California would require 10 months of lead-time for planning and a
           2.5-month round trip – programmatic risks which were determined to be unacceptable for
           the SLS Program. With regard to Marshall, since the early 1990s a significant number of
           homes and apartments have been built just beyond the Center’s boundaries and very little
           acoustic impact analyses has been performed to gauge the level of potential noise when
           test stands are in use. Moreover, because the SLS Program studied the possibility of
           conducting the core stage tests at B-2 for 2 years, he believed that the B-2 cost and
           schedule estimates were considerably more mature than the estimates for the other two
           options.

           However, even given this longer analysis period, we identified inaccuracies in the B-2
           estimates provided to the Council. For example, the independent cost estimate for the
           B-2 test facility identified $160.7 million of costs associated with risks specific to that


      14                                                                             REPORT NO. IG-14-009
RESULTS



  stand. While acknowledging that some risks applied only to the B-2 site, and absent
  evidence that the other test facilities would incur such costs, the SLS Program Manager
  nevertheless applied the costs associated with these risks to both the Air Force and
  Marshall estimates. He also acknowledged that since both the Air Force and Marshall
  stands required substantially less time to refurbish, the SLS Program could have taken
  more time to better define core stage testing requirements prior to beginning the work
  necessary to test on those stands.

  RPT Program Review. The cost estimates the RPT Program Manager presented to the
  Council differed significantly from those presented by the SLS Program Manager.
  According to the RPT Program Manager, he adjusted each facility’s cost estimates based
  on standard cost estimating practices, yet acknowledged his uncertainty with the cost
  estimates presented. Table 2 illustrates the cost comparison presented by the RPT
  Program Manager.

             Table 2. RPT Program Comparison of Test Facilities’ Estimated Costs
                                   (dollars in millions)
                                                                             Independent Cost
                        Air Force         Marshall        RPT Estimate for
                                                                               Estimate for
                       TS 1-125 1C         4670             Stennis B-2
                                                                                Stennis B-2
  Rough Order of
    Magnitude              $54.0              ---                 $44.9              ---
   Uncertainty
   Facility and
                           $154              $110                 $164             $256
    Test Costs
   Special Test
                           $29.4            $28.1                 $33.0            $34.3
    Equipment
       Risk                 ---             $15.6                  ---             $15.6
      Boeing               $49.0            $49.0                 $49.0            $49.0
     Post-test
                            ---              $2.5                 $2.5              $2.5
   Maintenance
      Total                $287              $206                 $294             $357
 Source: NASA OIG analysis of RPT Program Manager presentation.

  As previously stated, NASA’s RPT Board ruled out using the Air Force’s 1C test stand
  after the RPT Program Manager concluded that the facility presented a high
  transportation and schedule risk. In his presentation to the Council, he also cited the
  rough order of magnitude cost evaluation and lack of an independent cost estimate for the
  Air Force site.

  One of the primary reasons the RPT Program Manager cited for not recommending SLS
  core stage testing at Marshall was the potential risk associated with the noise level during
  testing for residential neighborhoods near the Center. However, we determined that the
  assessment of this risk was incomplete. Specifically, the limited acoustic evaluations that
  had been conducted projected only minor window damage and a potential increase in


REPORT NO. IG-14-009                                                                             15
                                                                                                     RESULTS



     damage claims in light of population increases near the Center. Although the RPT
     Program Manager used historical data to estimate 10 claims for structural damage per
     1,000 households, he could not show that specific testing for the core stage would
     generate a noise level that would exceed NASA or Occupational Safety and Health
     Administration standards.18 Furthermore, Marshall personnel provided additional
     justification for why the acoustic risk might not be as high as calculated, including:

               conservative models were used to predict the number of homes that could be
                affected, resulting in estimates that were likely higher than actuals;

               only a very small area near Marshall’s boundary was predicted to experience a
                high noise level; and

               the number of complaints expected would be difficult to quantify.

     The SLS Program Manager acknowledged that the risk of damage claims due to testing at
     Marshall was low but stated that further study would be required to more accurately
     quantify the level of risk.

     Similar to the SLS Program estimate, the RPT Program Manager assigned the
     independent cost estimates applicable to B-2 for risk and special test equipment to the 1C
     and 4670 test stands. For the reasons discussed above, we question this methodology
     because according to Marshall personnel, although the estimates for refurbishment were
     produced quickly, they were based on recent work and the assumptions upon which they
     were based were well-founded. Specifically, previous plans to modify the 4670 test stand
     to test the J-2X main propulsion test article for the Constellation Program and cost
     estimates developed for that testing helped inform the estimates for what would be
     required to perform the SLS core stage testing.

     Although the RPT Program Manager conceded that B-2 was the highest cost option, he
     pointed to well-known requirements for refurbishing the test stand and the intangible and
     future benefits of consolidating NASA’s rocket testing at Stennis. Specifically, he noted
     that Stennis maintains a cadre of contractors with experience testing large engines and
     pointed to possible synergies between B-2 refurbishment activities and future large-scale
     rocket-testing needs. However, he did not identify any specific follow-on rocket
     propulsion development projects. He also pointed to NASA’s 2012 Rocket Test Facility




     18
          The Program estimated a maximum offsite noise level of 99 decibels for 550 seconds (approximately
          9 minutes). NASA Procedural Requirements 1800.1C, “NASA Occupational Health Program
          Procedures w/Change 1,” October 6, 2009, and 29 CFR 1910.95,” Occupational Noise Exposure,” 2012,
          establish limits of 100 decibels for 15 minutes and 100 decibels for 2 hours, respectively.




16                                                                                    REPORT NO. IG-14-009
RESULTS



  Right Sizing Study that identified Stennis as the primary location for NASA’s large-
  scale, sea-level rocket engine testing.19


NASA’s RPT Decision-Making Process Lacks Internal Controls

  Although NASA agreed to the provisions set forth in its MOU with DOD, neither
  NASA’s policies for project management nor its policies for rocket propulsion testing
  contain adequate controls to ensure that the process is followed and an NRPTA
  recommendation is obtained prior to making a decision and committing significant
  Agency funds for rocket propulsion testing.

  NASA policy provides overall direction for how project managers execute their
  responsibilities.20 The policy outlines NASA’s management structure, the life cycle for
  spaceflight projects, the roles and responsibilities of and the interrelationships between
  team members, and management requirements by life-cycle phase. In addition, NASA’s
  systems engineering policy provides the requirements that must be followed for
  successful completion of NASA’s life-cycle reviews.21 Those reviews are designed to
  ensure management takes an integrated approach to meet customer needs and to improve
  safety, affordability, and ensure mission success. However, neither of these policies
  reference NASA’s policy for rocket propulsion testing or set a requirement for
  management to review recommendations from the RPT or NRPTA Boards as part of
  project life-cycle reviews for programs that involve rocket engine testing.

  The SLS Program initiated a combined, two-step System Requirements and System
  Definitions Review in February 2012.22 To successfully pass the review and move to the
  next life-cycle stage, the SLS Standing Review Board had to assess the soundness and
  maturity of the Program.23 However, no policy requirement exists for the Standing
  Review Board to review that a program requiring rocket propulsion testing has a plan or
  obtained a recommendation from the NRPTA or that the Standing Review Board has

  19
       Completed in February 2012, the Right Sizing Study compared test stand capabilities (e.g. thrust
       capacity, propellant type, volume and pressure, environmental simulation capability) and readiness states
       to identify capabilities overlap in the FY 2012-2017 timeframe. The Study team, chartered by the RPT
       Program Manager, examined 24 NASA rocket test facilities located at Marshall, Glenn, Plum Brook,
       Stennis, and White Sands. The review did not examine DOD or commercial test facilities.
  20
       NASA Procedural Requirements (NPR) 7120.5E, “NASA Space Flight Program and Project
       Management Requirements,” August 14, 2012.
  21
       NPR 7123.1B, “NASA Systems Engineering Processes and Requirements,” April 18, 2013.
  22
       The System Requirements Review is designed to evaluate whether functional and performance
       requirements for the system are responsive to the Mission Directorate requirements and represent
       achievable capabilities. The System Definition Review is designed to evaluate whether the project
       architecture meets functional and performance requirements.
  23
       A Standing Review Board is composed of independent experts who provide assessments of
       management’s technical and programmatic approach, risk posture, and progress against the project
       baseline and offer recommendations to improve performance or reduce risk.




REPORT NO. IG-14-009                                                                                               17
                                                                                            RESULTS



     reviewed the fidelity of analysis that resulted in a decision of where to test. Including
     such a requirement in NASA’s project management and/or rocket propulsion testing
     policies would add an internal control to ensure managers do not bypass a process
     designed to assure alignment with national interests and best value for the taxpayer.


Structure of RPT Program Management Contributes to Ongoing
  Challenges

     The ability of the RPT Program Manager to recommend and the HEO Mission
     Directorate to approve and fund rocket propulsion testing investments absent an NRPTA
     recommendation highlights a disconnect between the NRPTA MOU and NASA’s
     approval processes. We believe this is due in part to the broad authority NASA invests in
     the RPT Program Manager. Specifically, as the Chairman of NASA’s RPT Board, co-
     chair of the NRPTA, and member of the Steering Group, the RPT Program Manager
     holds all of the most influential positions on the RPT and NRPTA Boards.

     The NRPTA MOU states, “[t]he NRPTA Board will be requested to present
     recommendations, through an NRPTA member, to the final decision-making authority.”
     The MOU also states that the NASA members of the Steering Group are to come from
     the RPT Program chain of command and the Steering Group is to provide guidance to
     and resolve issues and concerns of the NRPTA Board. In our judgment, it is not possible
     for one person to accomplish all these tasks objectively while considering what
     constitutes the best value for the taxpayer, the best short- and long-term strategy for the
     organization, and the best fit for the program in need of rocket propulsion testing.


NASA’s Decision to Use the B-2 Stand May Introduce Cost and
 Schedule Risks to SLS Program

     NASA chose the B-2 test stand for SLS core stage testing without assessing complete and
     comparable data from other potential sites to make a well-informed decision. NASA’s
     limited internal assessments indicated that refurbishing the B-2 test stand was not the
     most cost-effective or timely choice to meet the testing requirements for SLS.
     Comparisons presented by the SLS and RPT Programs showed that B-2 was in the lowest
     state of readiness, would require the longest time to refurbish, and would cost the most of
     the three options. Although NASA may have a strategic reason for choosing the more
     expensive B-2 option (i.e., consolidation of rocket engine test facilities and resources at
     Stennis), we question whether NASA adequately considered all testing options before
     making its decision.

     In a September 2012 audit, the OIG identified NASA’s culture of optimism,
     underestimating technical complexity, and funding instability as challenges the Agency




18                                                                           REPORT NO. IG-14-009
RESULTS



  faces in meeting project cost, schedule, and performance goals.24 We believe these
  factors affected NASA’s choice for SLS core stage testing. NASA chose the test facility
  with the longest and most expensive development time and is optimistically planning that
  all aspects of the renovation will come together in time for the test stand to accommodate
  the SLS’s test schedule. Furthermore, at the time the Agency chose the B-2 test facility,
  NASA and Boeing had not yet fully defined SLS core stage technological requirements.
  To account for the immaturity of the SLS vehicle design and requirements, the
  independent cost estimate for using the B-2 test stand added $86.7 million for special test
  equipment and risk to account for potential design changes, funding delays, construction
  issues, and additional testing scenarios. Moreover, the estimate stated that the 6-month
  schedule margin for the B-2 stand was very optimistic for such a large, complex project,
  especially since Boeing hardware access requirements had not been identified, subsystem
  tests objectives were not defined or budgeted, and special test equipment hardware
  designs were not yet included in either Boeing or B-2 funding plans.

  As of November 2013, restoration of B-2 was on schedule to begin testing the core stage
  in October 2016. However, development of several important test stand components
  remain on the critical path and the B-2 Project Manager noted that there were delays in
  finalizing core stage requirements needed to refurbish the B-2 stand and design the
  required special test equipment, as well as yet to be determined impacts from the
  Government shutdown. Because B-2 refurbishment is a critical path item for SLS, it is
  imperative that firm design requirements be established and communicated in a timely
  manner to mitigate the risks to the SLS first flight and associated costs to the Program.


Conclusion

  NASA selected the B-2 test stand for SLS core stage testing without adequate, objective,
  and consistent assessments of all three potential test sites and prior to receiving a
  recommendation from the NRPTA – the second time in 5 years that NASA has bypassed
  its agreement to collaborate with DOD when making a costly test stand decision.
  Moreover, NASA did not provide timely information to the NRPTA and rushed its
  decision based on a timetable needed to refurbish B-2 in time to support the first SLS
  flight in December 2017. Although the April 2012 deadline may have influenced the
  decision to select a facility quickly, it appears from the assessments that both the Air
  Force and Marshall facilities would have required significantly less time and money to
  refurbish than the B-2 stand. Although the SLS Program flight schedule may explain the
  timing of the decision if B-2 were the only option, it does not justify a decision to restore
  B-2 without adequate and comparable assessments of the competing sites.



  24
       NASA OIG, “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
       September 27, 2012).




REPORT NO. IG-14-009                                                                                19
                                                                                            RESULTS



     In making the determination of where to test the SLS core stage, the Agency
     circumvented an intergovernmental process designed to aid in identifying the most cost-
     effective strategy for these very expensive engine tests. Although we are supportive of
     NASA’s efforts to consolidate engine testing and reduce unneeded infrastructure, doing
     so without fully evaluating the costs and risks of all available options is shortsighted and
     calls into question the relevance of the NRPTA process.

     Over the history of the NRPTA, only two major investments have been made (both by
     NASA) to create a new or modified test capability – the A-3 and B-2 test stands, both
     located at Stennis. In bypassing the NRPTA process on the A-3 decision, NASA failed
     to adequately support its decision to build the test stand and spent approximately
     $180 million more than initial estimates. By failing to engage the NRPTA in connection
     with the SLS core stage testing decision, NASA missed another opportunity to benefit
     from an independent review of cost, schedule, and technical risks and to promote a more
     cooperative partnership with DOD in the area of rocket propulsion testing.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

     To improve NASA’s decision-making process for rocket propulsion testing, we made the
     following recommendations to the Associate Administrator for HEO:

     Recommendation 1. Review internal control processes and implement a strategy for
     assuring timely coordination with DOD and adherence to requirements of NPD 8081.1.

        Management’s Response. The Associate Administrator concurred, stating that
        NASA will review internal control processes and implement a strategy to ensure
        programs and projects comply with NPD 8081.1. The Associate Administrator stated
        that the actions would be completed by September 30, 2014.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the corrective actions.

     Recommendation 2. In consultation with the Chief Engineer, ensure that requirements
     of NPD 8081.1 are at a minimum referenced in NASA’s project management policies.

        Management’s Response. The Associate Administrator concurred, stating that
        NPD 8081.1 will be incorporated into the appropriate sections of NPR 7120.5E and
        NPR 7123.1B no later than September 30, 2014.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the corrective actions.



20                                                                           REPORT NO. IG-14-009
RESULTS



  Recommendation 3. Revise NPD 8081.1 to include an independent review of RPT and
  NRPTA recommendations at appropriate life-cycle reviews.

      Management’s Response. The Associate Administrator partially concurred, stating
      that a revision of NPD 8081.1 will not necessarily ensure the appropriate review of
      rocket propulsion testing plans. Therefore, NASA will assess whether obtaining an
      independent review is best accomplished by revising NPD 8081.1 or other existing
      program management policies or the actions the Agency is planning to address
      Recommendations 1 and 2 will ensure the necessary review of propulsion testing
      decisions.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to the intent of our recommendation; therefore, the recommendation is
      resolved and will be closed upon completion of the assessment and verification that
      the resulting corrective actions have been implemented.

  Recommendation 4. Review the roles and responsibilities of the RPT Program Manager
  to ensure the position’s scope of authority is appropriate for accomplishing tasks
  objectively and provides consistency with the intent of the MOU with DOD.

      Management’s Response. The Associate Administrator concurred, stating that
      NASA will revise the RPT Program Commitment Agreement to remove the NRPTA
      co-chair responsibilities from the RPT Program Manager and rotate the NRPTA
      Board co-chair responsibilities between the NASA’s RPT Board representatives. The
      Associate Administrator stated that the actions would be completed by September 30,
      2014.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the corrective actions.




REPORT NO. IG-14-009                                                                        21
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from October 2012 through November 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We obtained and reviewed Rocket Propulsion Test Management Board Operating
  Procedures; NRPTA MOU and Operating Procedure NPD 8081.1, “NASA Chemical
  Rocket Propulsion Testing,” February 4, 2010; Stennis Policy Directive 1107.1, “John C.
  Stennis Space Center, SSC [Stennis] Organization, Mission and Responsibilities;”
  Stennis Work Instruction SOI-8080-0045-LC, “NASA Rocket Propulsion Test
  Management Board (RPTMB) Operating Procedures;” and the Rocket Propulsion Test
  Program Commitment Agreement for B-2.

  We performed our fieldwork at NASA Headquarters, Goddard Space Flight Center,
  Marshall Space Flight Center, and Stennis Space Center. We interviewed and obtained
  documentation from the RPT Program Office and NRPTA site representatives to identify
  issues relevant to our audit.

  Use of Computer-Processed Data. Computer-processed data was not used to support
  the findings or conclusions of this audit.


Review of Internal Controls

  We reviewed NASA’s RPT program policy and NRPTA Operating Procedures and
  interviewed Government personnel with oversight responsibilities for the NASA policy
  requirements. We determined that NASA has no internal controls in place to ensure that
  the appropriate process is followed for its RPT decision-making process and an NRPTA
  recommendation is obtained prior to making a decision and committing funds for rocket
  propulsion testing. In addition, NASA’s RPT decision making is overly concentrated in
  the RPT Program Manager, who holds all of the most influential positions of the RPT and
  NRPTA Boards. Implementing the recommendations should correct these deficiencies
  for future rocket propulsion testing decisions.




REPORT NO. IG-14-009                                                                          23
                                                                                    APPENDIX A



Prior Coverage

     During the last 5 years, the NASA Office of Inspector General (OIG) issued one report of
     particular relevance to the subject of this report: “Final Memorandum on the Review of
     NASA’s Plan to Build the A-3 Facility for Rocket Propulsion Testing” (IG-08-021,
     July 8, 2008). Unrestricted reports can be accessed at
     http://oig.nasa.gov/audits/reports/FY13/index.html.




24                                                                       REPORT NO. IG-14-009
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-14-009                         25
              APPENDIX B




26   REPORT NO. IG-14-009
APPENDIX B




REPORT NO. IG-14-009   27
                                                                                 APPENDIX C




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator for the Human Exploration and Operations Mission Directorate
     Chief Engineer
     Rocket Propulsion Test Program Manager
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Marshall Space Flight Center
     Director, Stennis Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




28                                                                     REPORT NO. IG-14-009
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Greg Lokey, Team Lead
   Scott Collins, Auditor
   Keren Stick, Auditor




REPORT NO. IG-14-009                                                         29
                                                                                      JANUARY 8, 2014
                                                                        REPORT No. IG-14-009




                                                                                  OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
